                                                                   AUDIT




U.S. FISH AND WILDLIFE SERVICE WILDLIFE AND SPORT FISH
RESTORATION PROGRAM GRANTS
Awarded to the State of Ohio, Department of Natural Resources,
From July 1, 2009, Through June 30, 2011




Report No.: R-GR-FWS-0014-2012                                   March 2013
                                                                                        March 22, 2013

Memorandum

To:           Daniel M. Ashe
              Director, U.S. Fish and Wildlife Service

From:         Hannibal M. Ware
              Eastern Regional Manager for Audits, Inspections, and Evaluations

Subject:      Final Audit Report – U.S. Fish and Wildlife Service Wildlife and Sport Fish
              Restoration Program Grants Awarded to the State of Ohio, Department of Natural
              Resources, From July 1, 2009, Through June 30, 2011
              Report No. R-GR-FWS-0014-2012

       This report presents the results of our audit of costs claimed by the State of Ohio,
Department of Natural Resources (Department), under grants awarded by the U.S. Fish and
Wildlife Service (FWS). FWS provided the grants to the State under the Wildlife and Sport Fish
Restoration Program. The audit included claims totaling $36 million on seven grants that were
open during State fiscal years that ended June 30, 2010, and June 30, 2011 (see Appendix 1).
The audit also covered the Department’s compliance with applicable laws, regulations, and FWS
guidelines, including those related to the collection and use of hunting and fishing license
revenues and the reporting of program income.

       We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. The Department, however, had not reported program income of
$318,957 and had not reconciled its real property records with FWS.

        We provided a draft report to FWS for a response. We summarized the Department and
FWS Region 3 responses, as well as our comments on the responses after the recommendations.
We list the status of the recommendations in Appendix 3.

       Please respond in writing to the findings and recommendations included in this report by
June 20, 2013. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation. Please address your
response to:

                              Hannibal M. Ware
                              Eastern Regional Manager
                              for Audits, Inspections, and Evaluations
                              U.S. Department of the Interior
                              Office of Inspector General
                              12030 Sunrise Valley Drive, Suite 230
                              Reston, VA 20191
                          Office of Audits, Inspections, and Evaluations | Reston, VA
      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

       If you have any questions regarding this report, please contact the audit team leader,
Peter Rich, or me at 703-487-5345.

cc: Regional Director, Region 3, U.S. Fish and Wildlife Service




                                                2
Table of Contents
Introduction ............................................................................................................. 1
   Background.......................................................................................................... 1
   Objectives ............................................................................................................ 1
   Scope ................................................................................................................... 1
   Methodology........................................................................................................ 1
   Prior Audit Coverage ........................................................................................... 2
   Audit Summary ................................................................................................... 3
   Findings and Recommendations.......................................................................... 3
Appendix 1 .............................................................................................................. 7
Appendix 2 .............................................................................................................. 8
Appendix 3 .............................................................................................................. 9
Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport
Fish Restoration Act (Acts) 1 established the Wildlife and Sport Fish Restoration
Program (Program). Under the Program, the U.S. Fish and Wildlife Service
(FWS) provides grants to States to restore, conserve, manage, and enhance their
sport fish and wildlife resources. The Acts and Federal regulations contain
provisions and principles on eligible costs and allow FWS to reimburse States up
to 75 percent of the eligible costs incurred under the grants. The Acts also require
that hunting and fishing license revenues be used only for the administration of
the States’ fish and game agencies. Finally, Federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives
We conducted this audit to determine if the State of Ohio, Department of Natural
Resources (Department)—

       •    claimed the costs incurred under the Program grants in accordance with
            the Acts and related regulations, FWS guidelines, and grant agreements;
       •    used State hunting and fishing license revenues solely for fish and wildlife
            program activities; and
       •    reported and used program income in accordance with Federal regulations.

Scope
Audit work included claims totaling approximately $36 million on the seven
grants open during State fiscal years (SFYs) that ended June 30, 2010, and
June 30, 2011 (see Appendix 1). We report only on those conditions that existed
during this audit period. We performed our audit at Department headquarters in
Columbus, OH, and visited one district office, two fish hatcheries, and five
wildlife areas (see Appendix 2). We performed this audit to supplement—not
replace—the audits required by the Single Audit Act Amendments of 1996 and by
Office of Management and Budget Circular A-133.

Methodology
We conducted our performance audit in accordance with the “Government
Auditing Standards” issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted
auditing procedures as necessary under the circumstances. We believe that the


1
    16 U.S.C. §§ 669 and 777, as amended, respectively.

                                                                                      1
evidence obtained from our tests and procedures provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Our tests and procedures included—

   •   examining the evidence that supports selected expenditures charged to the
       grants by the Department;
   •   reviewing transactions related to purchases, direct costs, drawdowns of
       reimbursements, in-kind contributions, and program income;
   •   interviewing Department employees to ensure that personnel costs charged
       to the grants were supportable;
   •   conducting site visits to inspect equipment and other property;
   •   determining whether the Department used hunting and fishing license
       revenues solely for the administration of fish and wildlife program
       activities; and
   •   determining whether the State passed required legislation assenting to the
       provisions of the Acts.

We also identified the internal controls over transactions recorded in the labor and
license fee accounting systems and tested their operation and reliability. Based on
the results of initial assessments, we assigned a level of risk to these systems and
selected a judgmental sample of transactions for testing. We did not project the
results of the tests to the total population of recorded transactions or evaluate the
economy, efficiency, or effectiveness of the Department’s operations.

Prior Audit Coverage
On October 16, 2008, we issued “U.S. Fish and Wildlife Service Wildlife and
Sport Fish Restoration Program Grants Awarded to the State of Ohio, Department
of Natural Resources, Division of Wildlife, from July 1, 2005 through June 30,
2007 (R-GR-FWS-0003-2008).” We followed up on all 13 recommendations in
the report and found that the U.S. Department of the Interior, Office of the
Assistant Secretary for Policy, Management and Budget (PMB) considered 11
recommendations resolved and implemented and the remaining 2
recommendations (G.1 and G.2) as resolved but not yet implemented. Therefore,
we have repeated the two unimplemented recommendations, which deal with real
property reconciliation and identification of funding sources. Documentation on
the implementation of repeat recommendations should be sent to PMB.

We reviewed the single audit reports and comprehensive annual financial reports
for SFYs 2010 and 2011. None of these reports contained any findings that would
directly affect the Program grants.




                                                                                    2
Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant
agreement provisions and requirements of the Acts, regulations, and FWS
guidance. We identified, however, the following two conditions that resulted in
our findings.

Unreported Program Income. The Department did not report $318,957 of
program income from shooting range fees.

Incomplete Real Property Records. The Department did not reconcile its grant-
funded real property records with those of FWS, and the property records did not
include the funding source.

Findings and Recommendations
A. Unreported Program Income—$318,957

Under the Program, States may earn revenue or program income from grant-
supported activities and must report and use such funds in accordance with
Federal regulations. Although the Department claimed program income totaling
$335,790 on Grant W-134-P-11 (Wildlife Management in Ohio) for the operation
and maintenance of wildlife areas, the Department did not report an additional
$318,957 of program income generated on its four Class A shooting ranges. The
operations and maintenance of the shooting ranges are included in the grant
agreement.

The Code of Federal Regulations (43 C.F.R. § 12.65(b)), defines program income
as gross income a grantee receives that is “directly generated by a grant supported
activity, or earned only as a result of the grant agreement during the grant period.”
The regulations specify that program income will be deducted from total
allowable costs to determine the net allowable costs, unless the Federal agency
authorizes otherwise. The regulations also require grantees to use program income
that the grantee did not anticipate at the time of the award to reduce the Federal
agency and grantee share of grant costs, rather than to increase the funds
committed to the project.

A Department official stated that the Department used a prior practice of not
reporting the range fees as program income. Although the C.F.R. specifically
defines program income and addresses how it will be managed, the official stated
that the Department does not have any written policies or procedures for the
management of program income.



                                                                                   3
The Department, however, should have reduced allowable costs by the amount of
program income earned. As a result of not reporting shooting range fees of
$318,957 as program income, the Department may have overstated net allowable
costs and drawn down $239,218 in excessive Federal funds on Program grant
W-134-P-11.

Recommendation

We recommend that FWS work with the Department to resolve the
unreported program income of $318,957 and excessive reimbursement of
$239,218.


Department Response
The Department officials concurred with the finding and recommendation.

FWS Response
FWS Regional officials concurred with the finding and recommendation and will
work with the Department on a corrective action plan.

OIG Comments
Based on the Department and FWS responses, the corrective action plan should
include—

   •   specific action(s) taken or planned to address the recommendation;
   •   targeted completion dates;
   •   titles of officials responsible for implementing the actions taken or
       planned; and
   •   verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

B. Incomplete Real Property Records

The Department must ensure that its database of real property acquired with
Program funds and license revenue is accurate and that its land records acquired
with Program funds reconciles with land records maintained by FWS. Although
FWS and the Department agreed that a reconciliation had been performed, the
official property records maintained by the Division of Real Estate and Land
Management (DREALM) do not identify the source of funding.

In addition, in SFY 2010, the Department used $700,000 of license revenue to
purchase the Sunday Creek Coal property but did not record the funding source in
its official records. The official land records do not include the funding source for
any past purchases using license funding. The prior audit (R-GR-FWS-0003-
2008), dated October 16, 2008, also reported that the Department had not
included the acquisition funding source for the official land records.

                                                                                    4
The Code of Federal Regulations (50 C.F.R. § 80.18) requires the States to be
responsible for the accountability and control of all assets acquired with Program
funds to assure that they are used for the purpose for which they were acquired
throughout their useful life. Also, 50 C.F.R. § 80.4 extends the same
accountability and control requirements to those assets acquired with license
revenues.

The FWS Director reiterated land management requirements to Program
participants in a March 29, 2007 letter, requesting that each State maintain a real
property management system that includes a comprehensive inventory of lands to
ensure that its inventory is accurate and complete. In addition, under the State of
Ohio Inventory Policy, the Department is required to maintain accurate and
complete records for all of its property.

A Department official stated that the land acquisition data from the prior
reconciliation with FWS was not retained in the official land database maintained
by DREALM.

The Department’s official land records maintained by DREALM, however, are
not adequate to ensure that land acquired with Program funds and license revenue
is being used for its intended purposes. We reported a similar condition in our
prior audit report (R-GR-FWS-0003-2008). We did note that since our prior audit
finding, the Division of Wildlife has made progress in reconciling the real
property records with FWS, however, we are repeating the applicable
recommendations from that report (Recommendations G.1 and G.2), which will
be tracked under the resolution process for the prior audit.

In the corrective action plan submitted in response to the prior audit, the
Department indicated that it would—

       1. work with FWS Region 3 to reconcile the Program lands database with
          the Department’s/Division’s lands database; and
       2. would ensure that any land purchased with Federal funds and/or
          hunting and fishing license revenues is appropriately identified and
          coded in the Department’s/Division’s lands database.

While on site, we determined that the Division of Wildlife is in the process of
creating this required database that will include the funding information that was
identified in the prior audit and addressed in the corrective action plan.




                                                                                     5
Repeat Recommendations

We recommend that FWS require the Department to:

    1. Reconcile its land records with FWS land records; and

    2. Ensure any land purchased with Federal funds is appropriately identified
       as such in its land records.


Documentation on the implementation of the repeat recommendations will be
forwarded to PMB.




                                                                                  6
Appendix 1
                          State of Ohio
               Department of Natural Resources
            Financial Summary of Review Coverage
              July 1, 2009, Through June 30, 2011

   Grant Number      Grant Amount           Claimed Costs
 F-69-P-11                 $25,810,363            $20,672,515
 F-70-B-1                    5,000,000              4,272,997
 FW-14-L-1                   2,000,000              2,000,000
 FW-14-L-2                           0                      0
 FW-14-L-3                     350,000                350,000
 FW-14-L-4                           0                      0
 W-134-P-11                 12,285,507              8,737,688
 Total                    $45,445,870            $36,033,200




                                                                7
Appendix 2
                 State of Ohio
         Department of Natural Resources

                   Sites Visited

                  Headquarters
                   Columbus

                  District Office
                 District 5 – Xenia

                  Wildlife Areas
                  Killdeer Plains
                    Resthaven
                    Rush Run
                    Tri-Valley
                   Wolf Creek
                   Woodbury

                 Fish Hatcheries
                     Castalia
                     Kincaid

                      Other
             Fremont Upland Reservoir




                                           8
Appendix 3
                            State of Ohio
                  Department of Natural Resources
           Status of Audit Findings and Recommendations

Recommendations          Status               Action Required
                                        Based on the FWS response,
                                        the corrective action plan
                                        should include the items listed
                                        in the Findings and
                   FWS management       Recommendations section
                   concurred with the   under OIG Comments. We will
                   recommendation,      refer the recommendation not
A
                   but additional       resolved or implemented at the
                   information is       end of 90 days (after June 20,
                   needed.              2013) to the Assistant
                                        Secretary for Policy,
                                        Management and Budget for
                                        resolution or tracking of
                                        implementation.
                   Repeat
                   recommendations
                   from our prior
                   report (R-GR-FWS-
                                        Provide documentation
B.1 and B.2        0003-2008,
                                        regarding the implementation
Repeat             Recommendations
                                        of these recommendations to
Recommendations    G.1 and G.2). PMB
                                        PMB.
                   considers these
                   recommendations
                   resolved but not
                   implemented.




                                                                       9
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
